A Petition For Rehearing

ineffective Counsel:

In the Probate Court in Peoria, Illinois the Plaintiff hired her third Counsel in May of
2018, paid his starting fee, gave him all the essential documents including an $80,000.00
promissory note that were to be filed in the probate court because the file was not
barred. He was to file the promissory note that the Plaintiff had loan to the Decedent in
two seprate installments which was the Plaintiffs two children college funds. The
promissory note was given to all the Plaintiffs Counsels and found out two Counsels did
not filed the promissory note.
When Plaintiff questioned the Third Counsel as to when he filed the promissory note
Counsel related to the Plaintiff that there was plenty of time to do so, and Plaintiff related
to him that she wanted him to to file it right away because the Oppossing Counsels
claimed that the file was barred. Plaintiff found out the promissory note was never filed
by the first two Counsels. These Counsels failed to file the affidavit in accordance with
the order of the state of Illinois for filing promissory notes.
Plaintiff instructed Counsel to please file the promissory note because Plaintiffs
previous Counsel instructed her to tell the next Counsel to file the note because it was
file was not barred because the Opposing Counsel did not file the proper papers in
probate Count and that it was essential to tell the next Counsel to file it immediately.
After the conversation with third Counsel, he promised that he would file promissory
note immediately.
Now the third Counsel was given all necessary documents related to the probate case.
The first Hearing third Counsel was a no show, second hearing he was late and fouth
Hearing he was on time, but he did not present Plaintiffs evidence during the trail. The
third Counsel had the witness invoices, and witness's letter, that were given to the third
Coursel to present as evidence during the Probate Trial, this was the same witness who
testified in Bankruptcy Court having the same evidence in Bankruptcy Court that the
Plaintiff gave to the witness and the witness testified in Bankruptcy Court which were
creditable evidence. But the third Counsel refused to present the same evidence in the
Probate Trail. These cancelled checks that contained the name of the Decedent who
signed the promissory note were given to Third Counsel who refused to submit them in
the Probate Trail as exidence. The Executor of the Will who was the son of the
Decedent testified during Probate Trail that the name was forged on the cancelled

A

checks because the Executior stated his father always used his middle initial E. when
writing his name on his checks. The cancelled checks would have proved the Executor
committed purgery. If the third Counsel had presented the cancelled checks during the
Probate Trail the outcome would have been different. None of the Plaintiff's evidence
were presented during Probate Trial. The Counsel did not bring the Plaintiff's file to
Probate Trail. Plaintiff ask the third Counsel where were her evidence, he replied I gave
them to you. When Counsel refused to present evidence to clear the matter and the
count took the testimony of the son who was the Executor of the Will the Plaintiff lost
the case. At that point Plaintiff ask Counsel to withdraw from her case. When the
withdrawal reach the court room the Presiding Judge ask the Opposing Counsel should
the Plaitiffs Counsel withdraw from her case, the Opposing Counsel's first response was
"No", and later recinded his first response and the Presiding Judge gave the Plaitiffs
Counsel the opportunity to expound on the reason why the withdrawal. The Third
Counsel responsed to the court that Plaintiff had lost confidence in him. After the
withdrawnal
the Plaintiff went Pro se. The Paintiff could not find another attorney to take her probate
case. After the Presiding Judge gave her 21 days to find another attorney with no avail
Plaintiff filed a motion for an extention, court denied the extention and this is why she
went Pro se.

UNFAIR TREATMENTS IN PROBATE COURT By OPPOSING COUNSELS AND
PRESIDING JUDGES:

The Opposing Counsel call the plaintiff's extention frivolous also the Plaintiff was
charged with fraud and fraudulent intent, injury, malice to the estate, and other charges
that would have sent the Plaintiff to prison for a long time. The Opposing Counsel goes
on to state that the Plaintiff's case was tained and that the Estate has been open since
2016.
The Opposing Counsel told the Presiding Judge to give the Plaintiff seven more days to
find an attorney, because the Plaintiff has gone through three attorneys already. And all
the evidence were presented during the Probate Trail. This was not a true statement
giving by the Opposing Counsel none of the Plaintiff's evidence were presented during
the Probate trail, the Plaintiff's evidence were presented and a witness gave testimony in
her Bankrutcy Trail, the same witness, Dave Plonitz and evidence were found crediable in
the Bankruptcy Court. The Opposing Counsel stated that he got to get this case over
with. The motion filed by the Plaintiff asking for an extention to seek an attorney was
denied by the Presiding Judge. And the Presiding Judge told the Opposing Counsel to
move on to the next agender. The Presiding Judge stated that the Plaintiff "wilP'Not" get
a second bite of the apple."

During the fourth Probate Hearing there was a no show for the Opposing Counsel and
the Plaintiff was confused when the Presiding Judge gave the Opposing Counsel a
continuance. The Presiding Judge told the Plaintiff not to "Kick a gift horse in the
mouth" At the time Plaintiff was Pro se this was just another instance where the
presiding Judge spoke to the Pliantiff in a condescending manner during court
procedures. Plaintiff have never missed a court Hearings and for the Presiding Judge to
speak to the Plaintiff in this manner was not professional. By presiding as Pro se
without any knowledge of the law terms, Plaintiff ask the Presiding Judge to explain
what was meant by Case Management in the count of law, the presiding Judge
responsed by responsing, "I will not answer any questions pretainting to the Plaintiffs
case and that Plaintiff had to wait until April 11, 2019 and the Plaintiff had better show up
for court if Plaintiff miss this Hearing date, Plaintiff will be arrested. " Plaintiff has never
missed a Hearing. The Presiding Judge told Plaintiff he did not want to see her in his
court room again until April 11, 2019 and order Plaintiff to get up and lead his court room
and go to the Circuit Clerk's office and give them her address. This was spoken in an
unwarranted condescending manner coming from the Presiding Judge, he knew the
court had the Plaintiffs address it was already in the court's record. Plaintiff went to the
Curcuit Clerk Office and while Plaintiff was in the line waiting to be served the phone
rang and the person on the other line must have ask her to see if Plaintiff was in the
office because the person who answer the phone called plaintiffs name to see if Plaintiff
had made to the Clerk's office. Plaintiff as the lady, did the judge want to know if i came
to the Clerk's office? There was no response from the lady who answer the phone and
called the Plaintiffs name.
During one Hearing the Opposing Counsel ask the Plaintiff if she could read? This
question stemed from a mistake of address by the city collector. The Plaintiff made a
mistake and paid taxes on some property that she thought belonged to she and the
Decedent because the city had send the property taxes to the wrong address and the
Plaintiff paid the taxes because the taxes had not being paid in three or five years and
Plaintiff though that the property would be taken by the city. The Plaintiff had been
working out of town and the Decedent was taken care of the property, the Plaintiff paid
the taxes to keep the city from taking the property. The Plaintiff thought since the
Decedent had become ill while the Plaintiff was away working, Plaintiff thought it was an
over sight on the part of the Decedent. The Presiding Judge wanted the Plinitiff to
comfirm the fact if Plaintiff could read. The Presiding Judge "demanded" the Plaintiff to
read a document aloud during Probate Hearing. This was disrespecful in an additional
to an attack on the status of the Plaintiff as an educator. The Plaintiff taught at
Mississippi Valley State University as an adjunt professor for nine years until there was a
decline in enrolement.
Though it all besed on the testimony of the witness, Dave Plonitz in the Bankrupcty
trail all the Court found to be credible, the court found no evidence of fraud or fraudulent
intent on the part of the Plaintiff who was the Debtor in the Bankruptcy Court. There

were no evidence that the Debtor acted to decieve the Executor. Alii the claims were
dischargeable.
The Plaintiff's evidence in the Probate Court were not presented by PaintifTs Third
Counsel these were the same evidence and the same charges that were credible in the
Bankruptcy Court but were not presented in the Probate Court and the Presiding Judge
ruled on evidence that were not presented by Third Counsel who the Plaihiff had given to
him to be presented in Probat Court None of the Plaintiff's evidence were submitted by
the plaintiff's Third Counsel in the Probate Court and the case was lost

Rule: 44.2

Certificate of Lucille Jordan Jackson, I here certify that this petition for rehearing is
presented in good faith and not for delay, and that it is restricted to the grounds
specified in Supreme Court Rule 44.2
Lucille Jordan Jackson? Pro se

m?

1

RECEIVED
APR 2 8 2021
G^QURtl'aS*

